UNITED STATES OF AMERICA,

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

 

Division of Enforcement
Bureau of Consumer Protection

August 18, 2000

Carolyn B. Malina
Import/Export Manager
Lands’ End, Inc.

5 Lands’ End Lane
Dodgeville, WI 53595

Dear Ms. Malina:

This is in reply to your letter requesting a ruling from the Commission that regulations
found in 16 C.F.R. §§ 303.28 and 300.15, concerning the labeling of packages containing textile
or wool products, do not apply to products that are sold to consumers via print catalogs and the
Internet. Please be advised that the Federal Trade Commission and its staff do not issue
“rulings” in response to requests for advice. However, the Commission has authorized its staff to
respond to requests for advisory opinions where appropriate. See 16 C.F.R. § 1.3.

Based on your letter, and telephone conversations with staff, it is my understanding that
Lands’ End is a direct merchant that sells textile products through mail order catalogs and the
Internet. The products are labeled with the disclosures required by the Textile Fiber Products
Identification Act or the Wool Products Labeling Act, as well as the Care Labeling Rule, and
such information is also set forth in the catalogs and on the Internet web site. You stated that the
majority of the items sold to Lands’ End by its suppliers are shipped to Lands’ End in transparent
poly-bags that are taped or heat-sealed. The items are then sold and shipped to Lands’ End’s
customers in these poly-bags. The product may be folded in such a way that the required
information on the label is not visible through the bag.

In 1984, Congress amended the Textile and Wool Products Acts to require that a package
containing a textile product intended for sale to the ultimate consumer bear the information also
required to appear on the label of the product (i.¢., fiber content, country of origin, and identity of
manufacturer or other dealer), unless the package is transparent and allows for a clear reading of
the label information. 15 U.S.C. §§ 70b(e) and 68c(c). The Commission implemented the
statutory requirement by adopting 16 C.F.R. § 303.28, which states:

Products contained in packages.

When textile products are marketed and delivered in a package which is intended to
remain unbroken and intact until after delivery to the ultimate consumer, each textile
product in the package, except hosiery, and the package shall be labeled with the required
information. If the package is transparent to the extent it allows for a clear reading of the
required information on the textile product, the package is not required to be labeled.
Ms. Carolyn B. Malina, page 2

A similar requirement was adopted for wool products sold in packages. 16 C.F.R. § 300.15.

There appears to be nothing in the record to indicate that the requirement for the labeling
of packages applies to mail order transactions. Rather, it appears that the intent of the
amendments was to ensure that packaged goods provide consumers with the required information
prior to sale at the point of purchase. As you noted, at the time the consumer receives the
product ordered by mail, the purchasing decision has already been made. A label on the
disposable poly-bag in which the product is shipped does not aid the consumer in making the
purchasing decision, and does not provide any additional information beyond what is already
attached to the product itself. Therefore, Commission staff members in the Division of
Enforcement have concluded that the package labeling requirements do not apply to packages
used to ship products ordered by mail or telephone or on the Internet.

If you have not already done so, you may wish to obtain a ruling from the United States
Customs Service as to whether poly-bags containing imported products must be marked with the
country of origin pursuant to the Tariff Act.

As I’m sure you are already aware, mail order -atalogs and other mail crder promotional
materials, including those disseminated electronically on the Internet, must disclose whether a
textile or wool product was made in the U.S., imported, or both. 16 C.F.R. §§ 303.1(u), 303.34,
300.1(h), and 300.25a. Catalogs and other written advertisements, including those appearing on
the Internet, must disclose the complete fiber content of a textile product if the descriptive
information about the product in any way states or implies the presence of a particular fiber or if
a fiber trademark is used. 16 C.F.R. § 303.40.

In accordance with Section 1.3(c) of the Commission's Rules of Practice and Procedure,
16 C.F.R. § 1.3(c), this is a staff opinion only and has not been reviewed or approved by the
Commission or by any individual Commissioner, and is given without prejudice to the right of
the Commission later to rescind the advice and, where appropriate, to commence an enforcement
action.

In accordance with Section 1.4 of the Commission's Rules of Practice and Procedure, 16
CFR. § 1.4, your request for advice, along with this response, will be placed on the public
record.

hope this information has been helpful. Enclosed is a copy of our business guide
’ explaining the requirements of the textile and wool labeling rules.

Sincerely,
o (anu . Kiln

Elaine D. Kolish
Associate Director for Enforcement
Enclosure
